                                                                                         -
                                          MEMORANDUM

1   ~   . .. . .. --..   . . ......   . . .....


                                          DATE:
                                               - -... . -   .   -..- .-
                                                                   ,




                                                                          August 29,1997
i
I
                                          TO:                             I96 120060

                                          FROM:

                                          VIA:

                                          RE:                             Close-out of




                                          Background

                                          In December 1996, we receive
                                          Professor in the Department of
                                          Principal Investigator on NSF                                                                  The
                                          accusations were numerous, but concerned five primary areas 1) billing irregularities, 2)
                                          purchasinglsales irregularities, 3) data control irregularities, 4) failure to follow University
                                          policies and procedures, and 5) irregularities in the publication
                                                                                                 I
                                                                                                              of Dr. e s s e r t a t i o n .


                                          Investigative Results

                                          Documents detailing prior internal                 niversity investigations1of this same
                                          matter were obtained from the                  niversity Internal Audit department.
                                          Internal Audit completed an                               review of the University
                                          investigation, and concluded that the allegations had been adequately addressed


                                                                                           be
                                                  A managerial inquiry was corn leted by the College
                                           1

                                          regarding the           against Dr.      -
                                                                                        M a n                                     f   t   h    ~
                                          relevant time period.
The above reviews resulted in the implementation of the following corrective actions:

           1)                                     -
                                  s Program's management                     -
                                                           structure was reorganized to
                phase out Dr.             as Manager of the
                                          committed in his place

           2)   An Alternate Accountable Property Officer is now required to approve
                fbture sales and dispositions of scrap or equipment

           3)   A                         policy has been implemented
                                       ...        -         _           __               _
          4)    Efforts continue to ensure the highest quality     data
                                                     I!




Conclusions

Based on the dual reviews at the University level, and implementation of policies negating
the institutional weaknesses causing rise to the harms, the investigative portion of this case
is closed.
                            ;'
